     Department of Homeland Security




    FEMA Should Recover $470,244 of Public Assistance
     Grant Funds Awarded to the City of Lake Worth,
       Florida - Hurricanes Frances and Jeanne




DA-13-08                                   December 2012

                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security
                                            Washington, DC 205281 www.oig.dhs.goY



                                            DEC       4 2012
MEMORANDUM FOR ,                       Major P. (Phil) May
                                       Regional Administrator, Region IV
                                       Federal Emergs ; iagement Agency

FROM:                                  D. Michael Bea rCf-....      I     V~...
                                      Assistant In spe           eneral              ...e..-
                                      Office of Emergency Management Oversight

SUBJECT:                               FEMA Should Recover $470,244 of Public Assistance Grant Funds
                                      Awarded to the City of Lake Worth, Florida-
                                      Hurricanes Frances and Jeanne
                                      FEMA Disaster Numbers 1545 and 1561-DR-Fl
                                      Audit Report Number DA-13-08

We audited Public Assistance {PAl funds awarded to the City of lake Worth, Florida (City)
(FIPS Code 099-39075-00). Our audit objective was to determine whether the City accounted
for and expended Federal Emergency Management Agency (FEMA) grant funds according to
Federal regulations and FEMA guidelines.

As of December 13, 2011, the City received PA awards totaling $12.2 million from the Florida
Division of Emergency Management (State), a FEMA grantee, for damages resulting from
hurricanes Frances and Jeanne, which occurred in September 2004. The awards provided
100 percent FEMA funding for the first 72 hours of debris removal and emergency protective
measures undertaken during the disaster and90 percent funding thereafter. The awards also
provided 90 percent funding for permanent repairs to buildings and other facilities. The awards
                                                     1
consisted of 25 large projects and 62 small projects. Table 1 identifies the specifics for each
disaster.

We reviewed projects totaling $10.8 million awarded under the two disasters (see Exhibit,
Schedule of Projects Audited). We limited our review of small projects to determining whether
work under the projects had been completed and whether the damages were covered by
insurance. The audit covered the period September 3,2004, to December 13, 2011, during
which the City received $9.8 million of FEMA funding under the projects reviewed. At the time
of our audit, the City had completed work on all large projects included in our scope and had
submitted a final claim of expenditures to the State for those projects.


1   Federal regulations in effect at the time of hurricanes Frances and Jeanne set the large project threshold at
$54,100.
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security




                            Table 1. Disaster-Specific Information
                                                     Amount         Large           Small
                          Disaster     Date of       Awarded       Projects        Projects
         Disaster         Number      Disaster      (Millions)     Awarded         Awarded
    Hurricane Frances      1545     09/04/2004             $8.2       16              29
    Hurricane Jeanne       1561     09/24/2004              4.0        9              33
          Total                                           $12.2       25             62

We conducted this performance audit between January and August 2012 pursuant to the
InspectorfGeneralfActfoff1978fas amended, and according to generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based upon our audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based upon our audit objective. To conduct this audit, we
applied the statutes, regulations, and FEMA policies and guidelines in effect at the time of the
disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed City,
State, and FEMA officials; reviewed the City’s procurement policies and procedures; reviewed
applicable Federal regulations and FEMA guidelines; and performed other procedures
necessary to accomplish our audit objective. We did not assess the adequacy of the City’s
internal controls applicable to its grant activities because it was not necessary to accomplish
our objective. However, we gained an understanding of the City’s method of accounting for
disaster-related costs and its policies and procedures for administering the activities provided
for under the FEMA award.


                                       RESULTS OF AUDIT

FEMA should recover $470,244 of PA funding awarded to the City, consisting of $385,890 for
costs not adequately supported, $38,390 for excessive labor costs, $21,289 for costs covered by
insurance, $8,570 for small project activities that were not completed, and $16,105 for costs
that were nondisaster-related. Further, although the City generally accounted for FEMA funds
on a project-by-project basis, it did not comply with Federal procurement requirements when
awarding contracts valued at $4,519,772 for repairs to its electrical distribution system.




    www.oig.dhs.gov                                  2                           DA-13-08
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Finding A: Contracting Procedures

The City did not comply with Federal procurement requirements when awarding $4,519,772 of
time-and-equipment contracts under several projects for repair of the City’s electrical
distribution system damaged as a result of hurricanes Frances and Jeanne. Federal regulations
at 44 CFR 13.36 required the City, among other things, to—

•	 Perform procurement transactions in a manner providing full and open competition except
   under certain circumstances. One allowable circumstances is when the award of a contract
   is infeasible under small purchase procedures, sealed bids, or competitive proposals, and
   there is a public exigency or emergency for the requirement that will not permit a delay
   resulting from competitive solicitation (44 CFR 13.36(c)(1) and (d)(4)(i)).

•	 Perform a cost or price analysis in connection with every procurement action, including
   contract modifications, to determine the reasonableness of the contractor’s proposed price
   (44 CFR 13.36(f)(1)).

•	 Use time-and-material contracts only after a determination that no other contract is
   suitable; and the contract contains a ceiling price that the contractor exceeds at its own risk
   (44 CFR 13.36(10)(1) and (11)).

In addition, FEMA’s PublicfAssistancefGuidef(FEMA 322, October 1999, pp. 39–40) specifies that—

•	 Contracts must be of reasonable cost, generally must be competed, and must comply with
   Federal, State, and local procurement standards.

•	 Noncompetitive proposals should be used only when the award of a contract is not feasible
   under small purchase procedures, sealed bids, or competitive proposals, and one of the
   following circumstances applies: (1) the item is available only from a single source, (2) there
   is an emergency requirement that will not permit a delay for competition, (3) FEMA
   authorizes noncompetitive proposals, or (4) solicitation from a number of sources has been
   attempted and competition is determined to be inadequate.

FEMA may grant exceptions to Federal procurement requirements to subgrantees on a case-by-
case basis (44 CFR 13.36(c)).

Hurricane Frances struck the City on September 3, 2004, and caused widespread damage to the
City’s electrical distribution system. Using its emergency contracting procedures, the City hired
multiple electrical contractors under noncompetitive contracts to repair damages caused by the
storm. The City hired the contractors without performing a cost or price analysis to determine


    www.oig.dhs.gov	                                 3                           DA-13-08
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


the reasonableness of their proposed prices, and without establishing ceiling prices that the
contractors exceeded at their own risk.

Before the City could complete all electrical repair work resulting from Hurricane Frances, the
City’s electrical distribution system suffered additional damage from Hurricane Jeanne on
September 24, 2004. According to the City’s utility department, electrical power was restored
to all of the City’s customers by September 29, 2004. However, additional work was required
to complete permanent repairs necessitated by the two storms. The City did not solicit
competitive bids for the permanent work. Instead, it continued to use the contractors hired
under the noncompetitive contracts for the contract work, which was completed December 5,
2004.

We concluded that the need to restore electrical power constituted exigent circumstances that
warranted the use of noncompetitive contracts through September 29, 2004, because lives and
property were at risk. However, the City should have performed a cost/price analysis and
established contract ceiling prices for the time-and-material work. In addition, the City should
have openly competed the permanent repair work after that date because exigent
circumstances no longer existed to justify the use of noncompetitive contracts. The City
claimed contract costs totaling $4,519,772 for work performed from September 3 to December
5, 2004, as shown in table 2.

In September 2007, FEMA reviewed the contract costs during closeout of the projects and
noted that the City followed its own emergency contracting procedures rather than Federal
procurement standards and FEMA guidelines. FEMA compared the hourly labor and equipment
rates billed by the contractors to rates the City paid to its unionized electrical workers for
predisaster work, and to FEMA and RSMeans cost data. 2 Based on this analysis, FEMA
concluded that the time-and-material contract rates were reasonable and, therefore, accepted
and approved the costs. Although FEMA concluded that the contractors’ hourly rates were
reasonable, the contract work might have been performed at a lower cost had the City
complied with Federal procurement standards. Therefore, we recommend that FEMA instruct
the State to remind the City that it is required to comply with Federal procurement standards
when acquiring goods and services under FEMA awards.




2
 RSMeans is a construction estimation database that professional construction estimators commonly use for up-
to-date labor, materials, and overhead costs for specific project types and locations.

     www.oig.dhs.gov                                        4                              DA-13-08
                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


                                 Table 2. Electrical Repair Contract Work 

                 Project                                              Time-and-Material
                 Number               Period of Work                Contract Costs Claimed
                Hurricane Frances:
                   603             09-03-04 to 10-08-04                          $ 781,893
                   328                 09-03-04 to 10-10-04                     1,097,570
                  5104                 09-04-04 to 09-24-04                       317,243
                  5115                 09-03-04 to 09-23-04                        99,404
                  5345                 09-06-04 to 09-14-04                       112,578
                 Subtotal                                                      $2,408,688
                Hurricane Jeanne:
                  3740                 10-11-04 to 10-15-04                      $214,147
                  3815                 10-23-04 to 12-05-04                       623,288
                  3675                 09-24-10 to 10-14-04                       244,776
                  3627                 10-15-04 to 11-18-04                       603,940
                  3662                 09-25-04 to 10-16-04                       424,933
                 Subtotal                                                      $2,111,084
                  Total                                                        $4,519,772

Finding B: Supporting Documentation

The City’s $385,890 claim for force account equipment use under the disasters was not
supported by adequate documentation.3 Cost principles at 2 CFR 225, CostfPrinciplesfforfState,f
Local,fandfIndianfTribalfGovernments, Appendix A, Section (C)(1)(j), states that a cost must be
adequately documented to be allowable under Federal awards.

The City did not have activity logs to support its equipment use that identified the specific
periods the equipment was used (i.e., dates of use, along with beginning and ending times).
The City used timesheets of employees who were assigned pieces of equipment on a daily basis
to calculate its claim. For instance, if an employee worked an 8-hour day and was assigned a
piece of equipment, the City claimed 8 hours of use for that piece of equipment. However,
such methodology assumes that the employee used the equipment continuously throughout
the day and, therefore, does not consider idle time. We question the $385,890, as shown in
table 3, because the City’s documentation was insufficient for us to determine the accuracy and
eligibility of the equipment costs claimed.




3
    Force account refers to the City’s personnel and equipment.

        www.oig.dhs.gov                                           5                  DA-13-08
                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                               Table 3. Unsupported Equipment Costs 

   Project                                                               Costs        Amount
   Number           Disaster                     Activity               Claimed      Questioned
    1336      Hurricane Frances      Debris Removal                      $ 14,740       $ 14,740
    6405      Hurricane Frances      Electrical Distribution Repairs      126,246        126,246
    3783      Hurricane Jeanne       Electrical Distribution Repairs      244,904        244,904
    Total                                                                $385,890       $385,890

City officials disagreed with this finding. They believed that the force account labor timesheets
that identified the piece of equipment an individual was assigned were sufficient documentation
to support equipment use.

Finding C: Excessive Labor Charges

The City’s claim included $38,390 of excessive force account labor costs. We question the
$38,390 as follows:

•	 Under Project 3783 (Hurricane Jeanne), we identified $37,360 of labor costs claimed for
   employees whose compensation was not based upon the City’s written compensation
   policy in effect prior to the disaster. According to 2 CFR 225, CostfPrinciplesfforfState,f
   LocalfandfIndianfTribalfGovernments, Appendix A, Section (C)(1)(a), costs under Federal
   awards must be both reasonable and necessary. FEMA policy (ResponsefandfRecoveryf
   DirectoratefPolicyfNumber:f9525.7, July 2000) states that straight time and overtime will
   be determined according to the applicant’s written policies and labor union contracts in
   effect prior to the disaster.

   The $37,360 of excessive costs occurred because the City paid employees double time for
   all hours worked, including regular hours, when an employee worked 16 consecutive hours
   during a work period. According to the City’s compensation policy and labor union contract,
   employees who work between 8 and 16 consecutive hours during a work period would be
   paid at time-and-a-half rates, and all hours over 16 will be paid at double-time rates. We
   question the $37,360 of excessive labor costs claimed for employees whose compensation
   was not consistent with the City’s compensation policy.

•	 Under Project 1336 (Hurricane Frances), the City’s claim included $1,030 of excessive labor
   costs. This occurred primarily because the City mistakenly applied its regular-time fringe
   benefit rate of 46 percent to overtime salaries of some employees. However, the City’s
   actual overtime fringe benefit rate was 22.13 percent. According to 2 CFR 225,fCostf
   PrinciplesfforfState,fLocalfandfIndianfTribalfGovernments,fAppendix A. Section (C)(1)(a),



    www.oig.dhs.gov	                                   6                          DA-13-08
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   costs under Federal awards must be both reasonable and necessary. Therefore, we
   question the $1,030.

Finding D: Losses Covered by Insurance

The City’s claim included $21,289 of project costs that were covered by insurance. Section
312(a) of the RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct, as amended,
states that no entity will receive assistance for any loss for which financial assistance has
already been received from any other program, from insurance, or from any other source. We
question the $21,289 as follows:

•	 Under Project 2646 (Hurricane Frances), FEMA approved $26,538 to repair the Osborne
   Community Center building roof and to remove and replace air ducts and acoustic ceiling
   tiles damaged by the disaster. The approved amount was reduced for anticipated insurance
   proceeds of $8,736, thus resulting in the City receiving $17,802 of FEMA funding under
   project. However, the City received insurance proceeds of $24,239, which covered the cost
   of all repairs under the project. Therefore, we question the $17,802 of FEMA funding
   because all project costs were covered by the insurance proceeds.

•	 Under Project 2386 (Hurricane Jeanne), FEMA awarded $3,319 for the repair of a pavilion
   roof at Barton Park. However, the City did not reduce the award for $1,107 of insurance
   proceeds received for the repairs. Similarly, under Project 2387 (Hurricane Jeanne), the City
   received $4,372 of FEMA funding to repair the tennis courts and restroom/pavilion roof at
   Sunset Ridge Park, but did not reduce the FEMA project for insurance proceeds of $2,380.
   Therefore, we question the $3,487 of costs that were covered by insurance.

Finding E: Small Project Work Not Completed

The City could not provide evidence that $8,570 of permanent repair work under several small
projects had been completed. According to 44 CFR 206.205(a), failure to complete work under
a small project may require that the Federal payment be refunded. In addition, FEMA’sfPublicf
AssistancefGuide (FEMA 322, April 1999, p. 114) states that a grant recipient has 18 months
from the disaster declaration date to complete work under permanent repair projects. The
State, as grantee, has the authority to grant extensions for an additional 30 months under
extenuating circumstances, and FEMA may grant extensions beyond the State’s authority
appropriate to the situation.

The City received $30,889 of FEMA funding to make various repairs to facilities damaged by
hurricanes Frances and Jeanne in September 2004. However, the City could not provide
evidence to show that the work had been completed or that time extensions had been granted


    www.oig.dhs.gov	                                7                          DA-13-08
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


by the State or FEMA to complete work under the projects. Therefore, we question the $8,570,
as shown in table 4.

                         Table 4. Small Project Activities Not Implemented
         Project     Disaster      Amount                   Activities         Amount
         Number      Number       Received             Not Implemented        Questioned
          1286        1545          $ 4,023          Casino Pool and Beach      $ 1,730
                                                 Complex—various activities
           4237       1545           11,239          Casino Pool and Beach         3,253
                                                 Complex—various activities
           2766       1561           11,255              Install Awning            1,595
           2387       1561             4,372        Remove/Install Shingles        1,992
          TOTAL                     $30,889                                      $ 8,570


Finding F: Nondisaster Charges

The City claimed $16,105 for nondisaster-related engineering services under Project 602
(Hurricane Frances). Federal regulation 44 CFR 206.223(a)(1) states that an item of work must
be required as a result of a major declared disaster event to be eligible for FEMA financial
assistance.

Under Project 602, the City was awarded $3.3 million to repair Lake Worth Fishing Pier. The
City contracted with an engineering firm to develop plans and specifications and to provide
engineering services during the construction and rehabilitation of the facility. We reviewed the
invoices billed by the engineering contractor and determined that the contractor charged
$16,105 for engineering services related to a subtropical storm that occurred on May 14, 2007,
which was not a FEMA-declared disaster event. Therefore, we question the $16,105.

OfficefoffInspectorfGeneralfComments. City officials responsible for making key decisions
regarding costs claimed to the State under the grant were no longer employed by the City at
the time of our audit. Therefore, we were unable to determine, through interviews, the
reasons certain ineligible costs were claimed. Nonetheless, Federal regulation 44 CFR 13.37(a)(2)
requires the State to take steps to ensure that subgrantees are aware of requirements imposed
on them by Federal statute and regulations. Further, under Federal regulation 44 CFR 13.40(a),
the State, as grantee, is required to manage the day-to-day operations of subgrantee activity
and monitor subgrantee activity to ensure compliance with applicable Federal requirements.
The State accepted the costs in question during its periodic reviews of reimbursement claims
submitted by the City. Based on the nature of our findings, we believe that the State can
improve its management controls over monitoring subgrantee project activities.



    www.oig.dhs.gov                                  8                          DA-13-08
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



                                     RECOMMENDATIONS 


We recommend that the Regional Administrator, FEMA Region IV: 


       Recommendation #1: Instruct the State to remind the City that it is required to comply
       with Federal procurement standards when acquiring goods and services under FEMA
       awards (finding A).

       Recommendation #2: Disallow $385,890 (Federal share $348,775) of unsupported
       project costs (finding B).

       Recommendation #3: Disallow $38,390 (Federal share $28,792) of ineligible labor costs
       (finding C).

       Recommendation #4: Disallow $21,289 (Federal share $19,160) of ineligible costs for
       activities covered by insurance (finding D).

       Recommendation #5: Disallow $8,570 (Federal share $7,713) of ineligible costs for
       small project work not completed (finding E).

       Recommendation #6: Disallow $16,105 (Federal share $14,495) of ineligible costs for
       nondisaster activities (finding F).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with City, State, and FEMA officials during our audit. We
also provided a draft report in advance to these officials and discussed it at the exit conference
held on August 15, 2012. City officials agreed with findings A, C, D, and F, and they will
continue to search for additional information for finding E. However, City officials did not agree
with finding B. Their comments are included, as appropriate, in the body of the report. FEMA
and State officials withheld comments pending receipt of the report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.


    www.oig.dhs.gov                                  9                          DA-13-08
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



Consistent with our responsibility under the InspectorfGeneralfAct,fwe are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Major contributors to this report were David Kimble, Eastern Region Audit Director;
Adrianne Bryant, Audit Manager; Vilmarie Serrano, Auditor-in-charge; and John Schmidt,
Program Analyst.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Eastern Region Audit Director, at (404) 832-6702.




    www.oig.dhs.gov                                10                          DA-13-08
                                          OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


                                                                                                                             EXHIBIT A

                                                Schedule of Projects Audited
                                       September 3, 2004, to December 13, 2011 

                                                  City of Lake Worth 

                                     FEMA Disaster Nos. 1545-DR-FL and 1561-DR-FL 

                                               Large and Small Projects

    Project                                                                     Amount       Amount        Amount
    Number                              Project Scope                           Awarded      Claimed      Questioned           Finding
                                                            Hurricane Frances
      470           Debris removal – non-72-hour period                           $224,740     $224,740       $         -
     1336           Debris removal – 72-hour period                                 65,975       65,975            15,770       B,C
     2966           Emergency protective measures – 72-hour period                 174,929      174,929
     4213           Tom G. Municipal Power Plant site work                         170,814      170,814                  -
      328           Citywide electrical distribution repair                      1,097,570    1,097,570
      603           Citywide electrical distribution repair                        781,893      781,893
     6405           Citywide electrical distribution repair                        521,165      521,165        126,246           B
     5104           Citywide electrical distribution repair                        317,243      317,243              -
     5115           Citywide electrical distribution repair                         99,404       99,404              -
     5345           Citywide electrical distribution repair                        113,491      113,491              -
      602           Lake Worth Fishing Pier repair                               3,285,502    3,285,502         16,105           F
DR 1545 Large Projects Subtotal                                                 $6,852,726   $6,852,726       $158,121
     1286           Pool and beach area site work                                   $4,023       $4,023         $1,730           E
     1461           Municipal golf course site work                                 15,521       15,521              -
     2632           City Hall elevator repair                                       15,665       15,665              -
     2646           Osbourne Community Center site work                             17,802       17,802         17,802           D
     3223           Casino Complex elevator repair                                   4,582        4,582              -
     3956           Tom G. Municipal Power Plant site work                           7,185        7,185              -
     3962           Tom G. Municipal Power Plant site work                          10,700       10,700              -
     4237           Casino Complex site work                                        11,239       11,239          3,253           E
     4879           Davis Road Substation and Pinecrest Cemetery site work           1,314        1,314              -
     7090           Electric substations site work                                  12,235       12,235              -
     7903           Tom G. Municipal Power Plant site work                           6,470        6,470
DR 1545 Small Projects Subtotal                                                   $106,736     $106,736        $22,785
DR 1545 Grand Total                                                             $6,959,462   $6,959,462       $180,906
                                                             Hurricane Jeanne
     3978           Citywide electrical distribution repair                       $322,789    $322,789    $              -
     2245           Emergency Protective Measures – 72-hour period                  95,873       95,873                 -
     3783           Citywide electrical distribution repair                      1,200,409    1,200,409           282,264       B, C
     3815           Citywide electrical distribution repair                        623,288      623,288
     3740           Citywide electrical distribution repair                        214,147      214,147
     3675           Citywide electrical distribution repair                        244,776      244,776
     3627           Citywide electrical distribution repair                        603,940      603,940
     3662           Citywide electrical distribution repair                        424,933      424,933              -
DR 1561 Large Projects Subtotal                                                 $3,730,155   $3,730,155       $282,264
     2766           Northwest Ballfields site work                                $ 11,255     $ 11,255        $ 1,595           E
     3918           Tom G. Municipal Power Plant site work                          20,702       20,702              -
     2387           Sunset Ridge Park site work                                      4,372        4,372          4,372          D, E
     2802           Water Treatment Plant site work                                  1,380        1,380              -
     2385           Bryant Park North site work                                      1,864        1,864              -
     2383           City Hall site work                                              8,822        8,822              -
     2765           Public Works Building site work                                  7,562        7,562              -
     2739           Fire Station #2 site work                                        3,222        3,222              -




       www.oig.dhs.gov                                                   11                                       DA-13-08
                                           OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security


                                                                                                           EXHIBIT A
                                                                                                         (Continued)
                                                Schedule of Projects Audited
                                       September 3, 2004, to December 13, 2011
                                                   City of Lake Worth
                                     FEMA Disaster Nos. 1545-DR-FL and 1561-DR-FL
                                                 Large & Small Projects

    Project                                                       Amount          Amount         Amount
    Number                            Project Scope               Awarded         Claimed       Questioned    Finding
     2752           City Hall site work                                1,213           1,213              -
     2386           Barton Park site work                              3,319            3,319         1,107     D
     2381           Municipal Golf Course site work                    6,477           6,477              -
     2844           Police Impound site work                           3,448           3,448              -
     2758           Norman Wimbley Gym site work                       6,203           6,203              -
     2379           Howard Park Pavilion site work                     3,900            3,900             -
     2382           City Hall site work                                1,025           1,025              -
     2941           CRC Building site work                             8,861            8,861             -
     2387           Sunset Ridge Park site work                        4,372            4,372             -
     2838           City Library site work                             1,360            1,360             -
DR 1561 Small Projects Subtotal                                        $ 99,357    $ 99,357         $ 7,074
DR 1561 Grand Total                                                  $3,829,512   $3,829,512       $289,338




        www.oig.dhs.gov                                         12                               DA-13-08
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                                                                                EXHIBIT B 


                                      Distribution List 

                                City of Lake Worth, Florida 

                          FEMA Disaster Nos. 1545 and 1561-DR-FL 


Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-008)

Grantee

Public Assistance Coordinator, Florida Division of Emergency Management

Subgrantee

City of Lake Worth, Finance Director




    www.oig.dhs.gov                              13                       DA-13-08
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
